DOE/IG-0446




      AUDIT
     REPORT

                                HANFORD SITE CLEANUP
                              OBJECTIVES INCONSISTENT
                              WITH PROJECTED LAND USES




                                            JUNE 1999




 U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL
  OFFICE OF AUDIT SERVICES
                                                June 18, 1999



MEMORANDUM FOR THE SECRETARY

FROM:                  Gregory H. Friedman (Signed)
                       Inspector General

SUBJECT:               INFORMATION: Audit Report on "Hanford Site Cleanup Objectives Inconsistent
                       With Projected Land Uses"

BACKGROUND

The cleanup of the Hanford Site (Hanford) is estimated to take over 50 years at a cost close to $100 billion.
Prior reviews have shown that unrealistic land use assumptions
can increase cleanup costs. Therefore, the objective of this audit was to determine if the Richland
Operations Office (Richland) was cleaning Hanford consistent with projected land uses.

RESULTS OF AUDIT

Although the 200, 300, and 1100 Areas were being cleaned consistent with projected future uses, the 100
Area was not. Based on a 1995 interim Record of Decision (ROD) that was issued by the U.S.
Environmental Protection Agency and the Washington State Department of Ecology, Richland was in the
process of cleaning the 100 Area waste sites for unrestricted use, which would make the land suitable for
residential use. Since 1992, however, projected land uses for the 100 Area were all nonresidential. Richland
cost analyses showed that cleaning for nonresidential use could significantly reduce cleanup costs. Although
Richland could have sought amendment of the cleanup objective specified in the interim ROD, it did not.

In April 1999, Richland issued the draft Hanford Remedial Action Environmental Impact Statement (HRA-
EIS). The draft included six scenarios for the future use of the entire site. None of the scenarios included
residential use. Richland anticipated issuing the HRA-EIS ROD, which would specify the Department's land
use decision, in November 1999. We recommended that Richland seek to amend the 1995 interim ROD no
later than November 1999, assuming the land use decision was other than residential, in order to achieve
consistency between projected land use and the cleanup objective. The Department estimates that changing
the cleanup objective from residential to nonresidential for just three waste sites within the 100 Area could
result in a $12 million savings. We also recommended that Richland challenge any future cleanup objectives
that are inconsistent with projected land uses.

MANAGEMENT REACTION

Richland agreed with both recommendations.

Attachment

cc: Deputy Secretary
    Under Secretary
HANFORD SITE CLEANUP OBJECTIVES INCONSISTENT
WITH PROJECTED LAND USES

TABLE OF
CONTENTS


                Overview

                Introduction and Objective .............................................. 1


                Conclusions and Observations ....................................... 1


                100 Area Cleanup Objective Inconsistent with
                Projected Land Uses


                Details of Finding ............................................................ 3


                Recommendations and Comments ................................. 5


                Appendices


                Scope and Methodology ................................................. 6


                Related Office of Inspector General and General
                Accounting Office Reviews ............................................. 7
Overview
INTRODUCTION      In the late 1980s, the Hanford Site's (Hanford) mission of producing
AND OBJECTIVE     nuclear materials for national defense programs ended and a transition to
                  an environmental restoration mission began. The ultimate goal of
                  the restoration mission is to protect public health and safety, through
                  mitigation and remediation of soil and groundwater contaminants, which
                  included radioactive and hazardous wastes. The cleanup of Hanford is
                  estimated to take over 50 years and cost close to $100 billion.

                  Although the Department of Energy (Department), Richland Operations
                  Office (Richland) is steward of the Hanford lands, regulatory
                  responsibility for the cleanup is shared with the U.S. Environmental
                  Protection Agency (EPA) and the State of Washington, Department of
                  Ecology (Ecology). In May 1989, these three entities entered into an
                  Interagency Agreement, The Hanford Federal Facility Agreement and
                  Consent Order, to provide a legal and procedural framework for
                  regulatory compliance and cleanup of Hanford. As part of this
                  framework, EPA and Ecology issue a Record of Decision (ROD) that
                  documents the cleanup objective (that is, cleanup level) selected for an
                  operable unit and the basis for the selection. Operable units, which are
                  groupings of waste sites, exist within Hanford's 100, 200, 300, and 1100
                  Areas.

                  The objective of the audit was to determine whether Richland was
                  cleaning Hanford consistent with projected land uses.

                  Although the 200, 300, and 1100 Areas were being cleaned consistent
                  with projected future uses, the 100 Area was not. Richland was in the
CONCLUSIONS AND
                  process of cleaning the 100 Area waste sites for unrestricted use, which
OBSERVATIONS
                  would make the land suitable for residential use. Since 1992, however,
                  projected uses for the 100 Area were nonresidential, such as recreation
                  and wildlife preservation. Cleaning for residential use, which is costly
                  and entails applying the most stringent environmental requirements, is
                  therefore inappropriate. For example, Richland studies showed that
                  cleanup costs for three 100 Area waste sites could be reduced by 14.2
                  percent if the cleanup objective was changed from residential to
                  nonresidential use.

                  Similar concerns about applying the most stringent environmental
                  restoration requirements to Department sites have previously been
                  expressed by the General Accounting Office (GAO) and the Office




Page 1                                               Introduction And Objective/
                                                     Conclusions And Observations
         of Inspector General (OIG). In 1994, GAO reported that EPA and the
         Department assumed that all of the Department's facilities would be
         cleaned for residential purposes, without consideration of projected
         land uses. In 1996, GAO testified that decisions on how much to clean
         up a site should be affected by forecasts of future land use, that the
         forecasts were crucial in estimating the potential for human exposure
         to contaminants, and that cleaning a site to a higher objective than
         required by projected land use wastes valuable cleanup funds. The OIG,
         in 1996, reported that the Savannah River Operations Office
         had entered into agreements with Federal and State regulators; the
         regulators assumed that the groundwater within certain Savannah River
         Site areas would one day be used for drinking water purposes, even
         though Savannah River officials stated that it was not their intention to
         use the areas for residential purposes (see Appendix 2).

         Cleaning the 100 Area consistent with projected land use would
         aid the Department in achieving several objectives shown in the
         1997 Strategic Plan and the Revised 1999 Final Performance Plan.
         For example, the Department has the Environmental Quality
         objective of reducing the life-cycle costs of environmental cleanup.
         Corporate Management objectives include maximizing resources and
         strengthening land management to ensure cost effective operations.
         By expending only the resources needed to clean the land for its
         projected use, Richland will have contributed to achieving these
         objectives.

         In our opinion, the matters discussed in this report represent material
         internal control weaknesses within the Department that should be
         considered when preparing the yearend assurance memorandum on
         internal controls.




                                           ______(Signed)_________
                                           Office of Inspector General




Page 2                                       Conclusions And Observations
100 Area Cleanup Objective Inconsistent
With Projected Land Uses
Cleanup For Residential    Richland was generally cleaning the Hanford Areas to their projected
Use Is Inconsistent With   future uses. However, the 100 Area was being cleaned for "residential
Projected Land Uses        use," which was defined as continuous occupancy of the land and
                           consumption of local plants, animals, and home-garden products. Land-
                           use planning documents had never envisioned such use.

                           As early as 1992, land use documents described only nonresidential uses
                           for the 100 Area. The 1992 report prepared by the Hanford
                           Future Site Uses Working Group (Working Group) projected only
                           four uses of the 100 Area, all of which were nonresidential: Native
                           American uses, such as fishing and hunting; limited recreation; B
                           Reactor Museum; and wildlife and recreation. Although one section
                           of the report called for ultimately achieving unrestricted use of the land,
                           such use went unmentioned as draft Comprehensive Land Use Plans
                           (Use Plan) began to be published. The first draft Use Plan, published
                           in 1996, recommended controlled access and recreation along the river
                           and restricted open space for the balance of the land. Nonresidential use
                           continued to be shown in the 1998 and 1999 draft Use Plans,
                           which stated the preferred land uses for the 100 Area to be grazing for
                           vegetation management, recreation, and preservation.

                           Since only nonresidential uses were described in the Working Group's
                           report and subsequent land Use Plans, the 100 Area should be cleaned
                           for nonresidential use to be consistent with projected land use.

                           The premise that cleanup should be consistent with projected land use
Cleanup Should Be
                           has been recognized repeatedly. In 1991, for example, the Advisory
Consistent With
                           Committee on Nuclear Facility Safety recommended to the Secretary
Projected Land Use
                           of Energy that cleanup be based on projected future land use. The
                           committee stated that it was widely understood that taxpayers could not
                           afford to return all of the Department's contaminated land to pristine
                           conditions. In November 1991, EPA, Ecology, and Richland declared
                           their agreement with this premise by stating, in the Hanford Past-
                           Practice Strategy document, that "past-practice cleanup actions are to be
                           compatible with projected future land uses" and "cleanup requirements
                           will result from selection of remedial alternatives, based on foreseeable
                           uses of the land." In 1994, the GAO reported that EPA and the
                           Department had assumed that all Department facilities would be cleaned
                           for residential purposes. In response to GAO's report, EPA issued a
                           directive indicating that cleanup decision-making should reflect
                           "reasonably anticipated future land use" and that this could lead to




Page 3                                                                         Details Of Finding
                          more expedited, cost effective cleanups. More recently, EPA and
                          Ecology stated, in the 1995 interim ROD issued for the 100 Area
                          waste sites, that a key component to identifying the extent of cleanup
                          necessary is the determination of "potential future land use." Thus, the
                          premise that cleanup should be consistent with projected land use was
                          agreed to by Richland, EPA, Ecology, and others.

Richland Has Not          Nevertheless, EPA and Ecology continued to insist that the 100
Challenged The            Area sites be cleaned to an unrestricted state, and Richland has not
Cleanup Objective         challenged the 1995 interim ROD that specified such cleanup.
In The 1995 Interim ROD   Importantly, the interim ROD stated that cleanup goals would be re-
                          evaluated if land use determinations were inconsistent with the goals
                          presented in the interim ROD. As land use plans were clarified and
                          continued to focus on nonresidential uses, Richland could have sought
                          to amend the interim ROD to achieve consistency between cleanup
                          levels and land use. Richland did not do so because it believed that a re-
                          evaluation of the interim ROD should wait until the land use decision
                          was finalized.

                          Richland will have an excellent opportunity to seek amendment
                          of the interim ROD when it issues the Hanford Remedial Action
                          Environmental Impact Statement (HRA-EIS) ROD. This ROD will
                          contain the Department's land use decision. The April 1999 draft
                          HRA-EIS included six scenarios for the use of the entire Site. None
                          of the scenarios included residential use. More specifically, the
                          Department's recommended scenario for the 100 Area continued to be
                          one of recreation, conservation, and preservation. Richland anticipates
                          issuing the HRA-EIS ROD in November 1999.

                          Continuing to support cleanup objectives that are inconsistent with
Increased Costs
                          projected land uses unnecessarily increases restoration costs. In 1994,
                          for example, the Department's Assistant Secretary for Environmental
                          Management stated that incorporating realistic land use assumptions in
                          the cleanup process could save the Department in the range of $200
                          million to $600 million annually. At Richland, the combined results of
                          two cost analyses showed that changing the cleanup objective from
                          residential to industrial for just three waste sites within the 100 Area
                          would reduce the cleanup cost from $85.5 million to $73.4 million, a
                          14.2 percent reduction. Other cost reductions are also possible. If
                          Richland actively supported nonresidential cleanup objectives for




Page 4                                                                       Details Of Finding
                   future RODs, for instance, it might avoid the costs that would be
                   incurred for public review and comment of selected remedies when
                   land use is finalized and cleanup goals are re-evaluated. Also, reducing
                   the cleanup level of the 100 Area to that compatible with projected land
                   use would result in the removal of less soil and, thereby, save additional
                   funds by reducing the need to expand the Environmental Restoration
                   Disposal Facility.

RECOMMENDATIONS    We recommend that the Manager, Richland Operations Office:

                      1. seek to amend the 1995 interim ROD in order to achieve
                         cleanup levels that are consistent with land use decisions, no later
                         than issuance of the HRA-EIS ROD in November 1999; and,

                      2. challenge future RODs having cleanup objectives that are
                         inconsistent with projected land uses.

MANAGEMENT         Richland concurred with the recommendations. Upon issuance of the
REACTION           HRA-EIS ROD, Richland will seek to amend, where necessary, the
                   interim ROD in order to achieve cleanup levels that are consistent
                   with adopted land use. Richland will also continue to challenge future
                   cleanup objectives that are inconsistent with projected land uses.

AUDITOR COMMENTS   Management comments are responsive to the recommendations. If there
                   is a delay in issuing the HRA-EIS ROD, however, we recommend that
                   Richland seek an amendment to the interim ROD on the basis of the land
                   use projected in the draft HRA-EIS. Otherwise, Richland will continue
                   to clean the 100 Area waste sites to a level exceeding the projected land
                   use.




Page 5                                              Recommendations And Comments
Appendix 1
SCOPE         The audit was performed from August 12, 1998 through April 30, 1999,
              at Richland's offices; the Richland offices of EPA and Bechtel Hanford,
              Inc., the environmental restoration contractor; and Ecology's
              Kennewick, Washington, office.

METHODOLOGY   To accomplish the audit objective, we:

              • interviewed Richland, EPA, Ecology, and contractor personnel;

              • reviewed laws, regulations, the 1995 interim ROD, land use plans,
                and contractual requirements;

              • reviewed budgets and expenditures;

              • evaluated rationales for cleanup objectives; and,

              • evaluated Richland and contractor efforts to minimize cleanup cost.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to the
              extent necessary to satisfy the audit objective. Accordingly, we assessed
              management controls to ensure cleanup objectives were consistent with
              projected land uses. Because our review was limited, it would not
              necessarily have disclosed all internal control deficiencies that may have
              existed at the time of our audit. We did not conduct a reliability
              assessment of computer-processed data because only a very limited
              amount of such data was used during the audit. There were no
              performance measures applicable to the audit objective. We held an exit
              conference with Richland's Director, Restoration Projects on
              May 21, 1999.




Page 6                                                   Scope And Methodology
Appendix 2
           Related Office Of Inspector General And General Accounting Office Reviews


This review concerned the consistency of Richland's cleanup of Hanford waste sites with projected land
uses. Prior OIG and GAO reviews related to similar issues are listed below.

• Audit of Groundwater Remediation Plans at the Savannah River Site, ER-B-96-02, June 11, 1996

   The Savannah River Operations Office had agreed to decrease groundwater contamination to levels
   that would allow human consumption, although it was unlikely that anyone would live above the
   groundwater or drink it.

• SUPERFUND–More Emphasis Needed on Risk Reduction, GAO/T-RCED-96-168, May 8, 1996

   EPA's decisions on whether and how much to clean up a site were affected by the agency's forecast of
   how the site would be used in the future. EPA was criticized for assuming too often that sites would
   be used for residential purposes, thereby driving up cleanup costs unnecessarily.

• ENVIRONMENTAL PROTECTION–Issues Facing the Energy and Defense Environmental
  Management Programs, GAO/T-RCED/NSIAD-96-127, March 21, 1996

   The Department usually assumed that all of its facilities would be cleaned up so that their use would be
   unrestricted; however, many facilities were so contaminated that unrestricted use was unlikely.

• NUCLEAR CLEANUP–Completion of Standards and Effectiveness of Land Use Planning Are
  Uncertain, GAO/RCED-94-144, August 26, 1994

   Incorporating more realistic land use assumptions into the selection process for a cleanup remedy
   under the Comprehensive Environmental Response, Compensation, and Liability Act could result in
   significant cost savings--from $200 million to $600 million annually, according to the Department's
   Assistant Secretary for Environmental Management.




Page 7                                                     Related Office Of Inspector General And
                                                           General Accounting Office Reviews
                                                                     Report No.: DOE/IG-0446


                              CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the back
of this form, you may suggest improvements to enhance the effectiveness of future reports.
Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been
   included in this report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any
questions about your comments.

Name____________________________________Date________________________________

Telephone________________________________Organization__________________________

When you have completed this form, you may telex it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

               Office of Inspector General (IG-1)
               U.S. Department of Energy
               Washington, D.C. 20585
               ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                      following alternative addresses:


                U.S. Department of Energy Management and Administration Home Page
                                      http://www.hr.doe.gov/ig
                                                 or
                                       http://www.ma.doe.gov


      Your comments would be appreciated and can be provided on the Customer Response Form
                   attached to the report. This report can be obtained from the:

                                       U.S. Department of Energy
                              Office of Scientific and Technical Information
                                               P.O. Box 62
                                      Oak Ridge, Tennessee 37831
